No. 19In the

Supreme Court of the United States
LYNN LUMBARD; ANITA YU; JOHN BOYER;
MARY RAAB,
Petitioners,
v.
CITY OF ANN ARBOR,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

Donald W. O’Brien, Jr.
Counsel of Record
Woods Oviatt Gilman LLP
1900 Bausch & Lomb Place
Rochester, New York 14604
(585) 987-2800
dobrien@woodsoviatt.com
Counsel for Petitioners

289911

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
In Knick v. Township of Scott, 588 U.S. __, 139 S. Ct.
2162, 2019 U.S. LEXIS 4197 (U.S., June 21, 2019), this
Court expressly overruled the state court exhaustion
requirement in Williamson County Regional Planning
Comm’n v. Hamilton Bank of Johnson City, 473 U.S. 172
(“the Williamson exhaustion requirement”), thereby
enabling takings claimants to go directly to federal court
to advance their Fifth Amendment claims. Because the
petitioner in Knick did not exhaust her state court remedy
and, instead, challenged the dismissal of her federal court
action, she was not burdened with an adverse state court
decision when this Court heard her appeal. The court in
Knick, therefore, was not called upon to extend its holding
to litigants, like the Petitioners in this case, who dutifully
exhausted their state court remedies and, as a result, were
caught in the preclusion trap set by San Remo Hotel, L.P,
v. City and County of San Francisco, 545 U.S. 323 (2005).
Given this Court’s clear and unequivocal endorsement
of the right of takings claimants to pursue their Fifth
Amendment claims in federal court without regard to
any available state court remedy, should Petitioners’
Complaint, seeking just compensation under the
Fifth Amendment, this Court’s decision in Loretto v.
Teleprompter Manhattan CATV Corp., 458 U.S. 419
(1982) and 42 U.S.C. § 1983 for the permanent physical
occupation of their homes, be reinstated?

ii
PARTIES TO THE PROCEEDINGS
The parties to the proceeding are Petitioners
Lynn Lumbard, Anita Yu, John Boyer and Mary Raab,
individually and on behalf of all others similarly situated.
The Respondent is the City of Ann Arbor, Michigan.

iii
PROCEEDINGS
(Rule 14(b)(iii)
Anita Yu, John Boyer and Mary Raab, Plaintiffs vs. City
of Ann Arbor, Defendant
22nd Circuit Court, County of Washtenaw, Michigan
Case No. 14-181-cc
Judgment Entered January 21, 2016
Anita Yu, John Boyer and Mary Raab, Plaintiffs vs. City
of Ann Arbor, Defendant
United States District Court for the Eastern District of
Michigan
Case No. 2:14-cv-11129-AC-MKM
Order to Remand Entered May 29, 2014
Lynn Lumbard, individually and on behalf of all others
similarly situated, Plaintiffs vs. The City of Ann Arbor,
Defendant
22nd Circuit Court, County of Washtenaw, Michigan
Case No. 15-1100-cc
Judgment Entered March 31, 2016
Anita Yu, John Boyer and Mary Raab vs. City of Ann
Arbor, Plaintiffs-Appellants vs. The City of Ann Arbor,
Defendant-Appellee
Michigan Court of Appeals
Michigan Court of Appeals No. 332675
Judgment Entered May 9, 2017

iv
Lynn Lumbard, Anita Yu, John Boyer and Mary Raab,
individually and on behalf of all others similarly situated,
Plaintiffs-Appellants vs. City of Ann Arbor, DefendantAppellee
Michigan Court of Appeals
Court of Appeals Case No. 331501
Judgment Entered May 9, 2017
Lynn Lumbard, Anita Yu, John Boyer and Mary Raab,
individually and on behalf of all others similarly situated,
Plaintiffs vs. City Of Ann Arbor, Defendant
United States District Court for the Eastern District of
Michigan
Case No. 2:17-cv-13428-SJM-MKM
Judgment Entered February 7, 2018
Lynn Lumbard, Anita Yu, John Boyer and Mary Raab,
individually and on behalf of all others similarly situated,
Plaintiffs-Appellants vs. City of Ann Arbor, DefendantAppellee
United States Court of Appeals for the Sixth Circuit
Case No. 18-1258
Judgment Entered January 10, 2019

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL, STATUTORY AND
REGULATORY PROVISIONS AT ISSUE . . . . . . . . . . 2
INTRODUCTION AND STATEMENT
OF THE CASE  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. Facts Relevant to the Appeal . . . . . . . . . . . . . .  `12
B. Relevant History of the Case . . . . . . . . . . . . . . . 15
1.

The Yu Case  . . . . . . . . . . . . . . . . . . . . . . . . . 15

2.

The Lumbard Class Action . . . . . . . . . . . . . 18

vi
Table of Contents
Page
3.

The Consolidated Appeal  . . . . . . . . . . . . . . 18

4.

The District Court . . . . . . . . . . . . . . . . . . . . 19

5.

The Sixth Circuit . . . . . . . . . . . . . . . . . . . . . 20

REASONS FOR GRANTING THE PETITION . . . . 20
A. Failing to Rescue Claimants Already
Ensnared in the San Remo Preclusion Trap
Would Undermine the Knick Holding.  . . . . . . . 20
B. The Rules Governing Retroactivity Favor
Application of Knick to the Petitioners’
Case. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
C. The Petitioners Did Not Waive Their Rights
to Remain in Federal Court Following the
Removal of the Yu Case by the City. . . . . . . . . . 25
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

vii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
SIXTH CIRCUIT, FILED JANUARY 10, 2019 . . . 1a
A PPENDIX B — OPINION AND ORDER
OF THE UNITED STATES DISTRICT
COURT FOR THE EA STERN
DISTRICT OF MICHIGAN, SOUTHERN
DIVISION, FILED FEBRUARY 7, 2018  . . . . . . . 15a
APPENDIX C — DENIAL OF REHEARING
OF T H E U N I T ED S TAT E S C OU RT
OF A PPEA LS FOR T HE SI X T H
CIRCUIT, FILED FEBRUARY 27, 2019 . . . . . . . 26a

viii
TABLE OF CITED AUTHORITIES
Page
CASES:
A Forever Recovery, Inc. v. Twp. of Pennfield,
606 Fed. Appx. 279 (6th Cir. 2015) . . . . . . . . . . . . . . . 27
Agins v. Tiburon,
447 U.S. 255 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
Braun v. Ann Arbor Charter Twp.,
519 F. 3d 564 (6th Cir. 2008) . . . . . . . . . . . . . . . . . . . .  17
Cape Ann Citizens Ass’n v. City of Gloucester,
121 F.3d 695, Case No. 96-2327 (1st Cir. 1997) . . . 17, 18
Costa v. City of Detroit,
2013 U.S. Dist. LEXIS 10847
(E.D. Mich., January 28, 2013)  . . . . . . . . . . . . . . . . . 19
DLX, Inc. v. Kentucky,
381 F.3d 511 (6th Cir. 2004) . . . . . . . . . . . . . . . . . . . .  17
Eaton v. Charter Twp. of Emmett,
2008 U.S. App. LEXIS 6603 (6th Cir.,
March 21, 2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
England v.
Louisiana State Bd. of Medical Examiners,
375 U.S. 4011 (1964)  . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Harper v. Va. Dep’t of Taxation,
509 U.S. 86 (1993) . . . . . . . . . . . . . . . . . . . . . . . . . 24, 25

ix
Cited Authorities
Page
Horne v. Dep’t of Agriculture,
569 U.S. 513 (2013)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
HRT. Enters. v. City of Detroit,
2013 U.S. Dist. LEXIS 42611
(E.D. Mich., March 26, 2013) . . . . . . . . . . . . . . . . . . . 19
James B. Beam Distilling Co. v. Georgia,
501 U.S. 521 (1991)  . . . . . . . . . . . . . . . . . . . . . . . . 24, 25
Knick v. Township of Scott,
588 U.S. __, 139 S. Ct. 2162, 2019 U.S.
LEXIS 4197 (U.S., June 21, 2019) . . . . . . . . . . . passim
Lilly Investments v. City of Rochester,
674 Fed. Appx. 523 (6th Cir. 2017) . . . . . . . . . . . . 27, 28
Lingle v. Chevron U.S.A., Inc.,
544 U.S. 528 (2005) . . . . . . . . . . . . . . . . . . . . . . . .  17, 23
Loretto v.
Teleprompter Manhattan CATV Corp.,
458 U.S. 419 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . 21, 23
Lumbard v. City of Ann Arbor,
913 F.3d 585 (6th Cir. 2019) . . . . . . . . . . . . 1, 18, 28, 29
Oakland 40, LLC v. City of South Lyon,
2011 U.S. Dist. LEXIS 53158 (E.D. Mich.,
May 18, 2011) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26

x
Cited Authorities
Page
San Remo Hotel, L.P. v.
City and County of San Francisco,
545 U.S. 323 (2005) . . . . . . . . . . . . . . . . . . . . . . . passim
Sansotta v. Town of Nags Head,
724 F.3d 533 (4th Cir. N.C. 2013) . . . . . . . . . . . . . . . . 26
Sherman v. Town of Chester,
752 F.3d 554 (2d Cir. 2014) . . . . . . . . . . . . . . . . . . . . . 26
Stop the Beach Renourishment, Inc. v.
Florida Dep’t of Envtl. Prot.,
560 U.S. 702 (2010)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Williamson County Regional Planning Comm. v.
Hamilton Bank of Johnson City,
473 U.S. 172 (1985)  . . . . . . . . . . . . . . . . . . . . . . . passim
Yu v. City of Ann Arbor,
2017 Mich. App. LEXIS 739
(Mich. Ct. App., May 9, 2017) . . . . . . . . . . . . . . . . . . . 19
STATUTES AND OTHER AUTHORITIES:
U.S. Constitution, amend. V . . . . . . . . . . . . . . . . . . passim
U.S. Constitution, amend. XIV . . . . . . . . . . . . . . . . . . . .  17
18 U.S.C. § 1589  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

xi
Cited Authorities
Page
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1331  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
28 U.S.C. § 1447(c)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 20, 22
Ann Arbor City Code § 2:51.1 . . . . . . . . . . . . . . . . . . . 4, 11
Ann Arbor City Code § 2:51.1(3) . . . . . . . . . . . . . . . . . . . . 9
Ann Arbor City Code § 2:51.1(4) . . . . . . . . . . . . . . . . . . . . 5
Ann Arbor City Code § 2:51.1(12) . . . . . . . . . . . . . . . . . . . 9
Ann Arbor City Code § 2:51.1(12)1 . . . . . . . . . . . . . . . . . 10
Ann Arbor City Code § 2:51.1(15)1 . . . . . . . . . . . . . . . . . 11
Fed. R. Civ. 12(d)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

1
Petitioners, Lynn Lumbard, Anita Yu, John Boyer
and Mary Raab, individually and on behalf of all others
similarly situated, respectfully petition for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Sixth Circuit in this case.
OPINIONS BELOW
The panel opinion of the Court of Appeals of the Sixth
Circuit is reported at Lumbard v. City of Ann Arbor, 913
F.3d 585 (6th Cir. 2019) and is reproduced as Appendix
A. The denial of the petition for rehearing en banc is
unreported. It is reproduced as Appendix C. The opinion
of the District Court granting the motion to dismiss is
unreported. It is reproduced as Appendix B.
JURISDICTION
On February 7, 2018, the District Court granted
Respondent’s motion to dismiss (Appendix B). Petitioners
filed a timely appeal to the Court of Appeals for the
Sixth Circuit, which affirmed dismissal on January 10,
2019 (Appendix A). Petitioners filed a timely petition for
rehearing en banc. On February 27, 2019, the court denied
the petition (Appendix C).1 This Court has jurisdiction
under 28 U.S.C. § 1254(1).

1. By letter dated May 29, 2019, the Petitioners were granted
an extension until July 29, 2019, to file their petition with this
Court.

2
CONSTITUTIONAL, STATUTORY AND
REGULATORY PROVISIONS AT ISSUE
42 U.S.C. § 1983. Civil Action for Deprivation of
Rights
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or causes
to be subjected, any citizen of the United States or other
person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other proper
proceeding for redress, except that in any action brought
against a judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief shall not
be granted unless a declaratory decree was violated or
declaratory relief was unavailable. For the purposes of
this section, any Act of Congress applicable exclusively
to the District of Columbia shall be considered to be a
statute of the District of Columbia.
Fifth Amendment to the Constitution of the United
States
No person shall be held to answer for a capital, or
otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in
the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any
person be subject for the same offence to be twice put
in jeopardy of life or limb; nor shall be compelled in any
criminal case to be a witness against himself, nor be

3
deprived of life, liberty, or property, without due process
of law; nor shall private property be taken for public use,
without just compensation.
18 U.S.C. § 1589 Forced labor
(a) Whoever knowingly provides or obtains the labor
or services of a person by any one of, or by any combination
of, the following means—
(1) by means of force, threats of force, physical
restraint, or threats of physical restraint to that person
or another person;
(2) by means of serious harm or threats of serious
harm to that person or another person;
(3) by means of the abuse or threatened abuse of law
or legal process; or
(4) by means of any scheme, plan, or pattern intended
to cause the person to believe that, if that person did not
perform such labor or services, that person or another
person would suffer serious harm or physical restraint,
shall be punished as provided under subsection (d).
(b) Whoever knowingly benefits, financially or by
receiving anything of value, from participation in a
venture which has engaged in the providing or obtaining
of labor or services by any of the means described in
subsection (a), knowing or in reckless disregard of the
fact that the venture has engaged in the providing or
obtaining of labor or services by any of such means, shall
be punished as provided in subsection (d).

4
(c) In this section:
(1) The term “abuse or threatened abuse of law or
legal process” means the use or threatened use of a law or
legal process, whether administrative, civil, or criminal,
in any manner or for any purpose for which the law was
not designed, in order to exert pressure on another person
to cause that person to take some action or refrain from
taking some action.
(2) The term “serious harm” means any harm,
whether physical or nonphysical, including psychological,
financial, or reputational harm, that is sufficiently serious,
under all the surrounding circumstances, to compel a
reasonable person of the same background and in the
same circumstances to perform or to continue performing
labor or services in order to avoid incurring that harm.
(d) Whoever violates this section shall be fined under
this title, imprisoned not more than 20 years, or both.
If death results from a violation of this section, or if
the violation includes kidnaping, an attempt to kidnap,
aggravated sexual abuse, or an attempt to kill, the
defendant shall be fined under this title, imprisoned for
any term of years or life, or both.
2:51.1. Program for footing drain disconnect from
POTW (City of Ann Arbor).
(1) Purpose: The purpose of this Program is to
significantly reduce improper stormwater inflows in
the most cost-effective manner, in order to eliminate or
reduce instances of surcharged sanitary sewers due to
improper inflows, which are inimical to public health and

5
welfare; reduce the chance of a sanitary sewer backup into
occupied premises; and to maximize efficient operation of
the District’s wastewater treatment plants.
(2) Definitions: For purposes of Section 2:51.1 of the
Ann Arbor City Code:
1. Improper stormwater inflow shall mean any
direct connections (inflow) to the public sewer
of sump pumps (including overflows), exterior
floor drains, downspouts, foundation drains,
and other direct sources of inflow (including
but not limited to visible evidence of ground/
surface water entering drains through doors or
crack in floors and walls) as noted during field
inspections by the Utility Department.
2. Participating owner(s) shall mean those
persons that own property within a target area
as may have been defined by the Director and
who have notified the Director of their decision
to participate in the program within 90 days
of having been ordered by the Director to
correct improper stormwater inflows from their
property and meet the eligibility requirements
of Section 2:51.1(4).
(3) Scope of Program: All improper stormwater inflow
disconnection costs shall be at the owner’s expense, except,
in accordance with this funded program, the POTW may
either reimburse the participating owner of a premises,
or pay directly to the participating owner’s contractor, for
qualifying work up to a maximum of $3,700.00 (“Funding
Cap”), or as may be adjusted under 2:51.1(12), for

6
corrective work to remove improper stormwater inflows
for which the initial building construction permit was in
existence prior to January 1, 1982 or prior to the date the
premises became under City of Ann Arbor jurisdiction.
This funding program is referred to in this Section as
the “Reimbursement Program,” regardless of whether
payment is made as reimbursement to the participating
property owner or as direct payment to the participating
property owner’s contractor.
(4) Eligible Participants. This program may be utilized
only for: (a) Improper stormwater inflows for which the
initial building construction permit was in existence prior
to January 1, 1982 or, (b) for premises in areas which
came into the jurisdiction of the City of Ann Arbor at a
later date, improper stormwater inflows which were in
existence prior to the date of such inclusion.
(5) In every instance where the Director is required
to act or approve an action, the action or approval may
be performed by a person designated, in writing, by the
Director to act as his or her designee.
(6) Target Areas; Orders. The Director may implement
and make available this Reimbursement Program
throughout the City, or instead only in target areas
within the City determined by the Director as having
the highest priority for reduction of stormwater inflows
based on surcharging problems. When the Director
issues orders for removal of improper stormwater inflows
in an area where the program is being implemented,
the Director shall inform the owner of the availability
of the Reimbursement Program. Participation in the
Reimbursement Program shall be voluntary; owners

7
declining to participate shall be required to proceed with
removal of the improper inflow at the owner’s expense.
(7) Scope of Work. The Director shall determine
for each participating premises the scope of work for
reduction of improper stormwater inflows and sewer
backup prevention, which may be paid for with Program
funds, with the goal of achieving the most cost-efficient
and timely reductions. If work paid for under this Program
does not eliminate every improper stormwater inflow for
a participating premises, the Director is not precluded
from issuing supplemental orders under Chapter 28 of
Title II concerning the participating premises. For each
participating premises the maximum cost which may be
paid with POTW funds to an owner or owner selected
contractor shall be the Funding Cap set under 2:51.1(3)
or as may be adjusted under 2:51.1(12). If additional work
is required it shall be performed at owner expense.
(8) Approved Contractors. The Director may establish
a list of private contractors or contractor teams (referred
to as “contractor (s)” throughout this section) approved
for performing work under this Program based on
qualifications including experience, quality of work and
insurance. Participating owners may propose additional
contractors for inclusion in the approved list.
(9) Contractor Selection. Participating owners shall
select an approved contractor in accordance with a process
established by the Director. Participating Owners may
either select a private contractor from the list or agree
to perform the work by him or herself.
1. If the participating owner selects a contractor
from the list of approved private contractors

8
to perform the work, after Director review
and approval of the contractor selection and
contract price, the owner shall contract with
the selected contractor for performance of the
approved scope of work. The City of Ann Arbor
shall not be a party to the contract. The owner’s
contract shall require the contractor to secure
any building permits as may be necessary and
shall specify that the owner’s final payment to
the contractor shall not be made until (i) the
work is inspected and approved by the Director
and approved by the owner, whose approval
shall not be unreasonable withheld, (ii) a release
of lien from all contractors or subcontractors
performing work on the premises is obtained.
2. If the participating owner elects to perform
the work his or herself, the scope of work,
plans and specifications shall be approved in
advance by the Director. The Director may
establish rules authorizing reimbursement or
partial reimbursement for owner-performed
work. No payment shall be made until the work
is complete, inspected and approved by the
Director. To be eligible for reimbursement, a
request for payment must be accompanied by
supporting receipts for materials, supplies and
equipment.
(10) Release. As a condition to participation in the
program the owner shall release the City of Ann Arbor,
and their officers and employees from all liability relating
to the work.

9
(11) Payment. After the work is inspected and
approved by the Director and approved by the owner, the
Director shall authorize payment for 100% of the cost of
the approved work (subject to the funding cap set under
2:51.1(3) or as may be adjusted under 2:51.1(12)) from
POTW funds approved for this purpose. Partial payments
may not be made except that, at the sole discretion of the
Director, a final payment may be made, less a reasonable
retention for ensuring the completion of punch list items.
Payment may be made to the owner, to the contractor, or
jointly to the owner and contractor, in the Director’s sole
discretion.
(12) Funding Cap Appeals.
1. Not w it h st a nd i ng a ny m a x i mu m
reimbursement amount stated elsewhere within
this section, the Director, upon a written request
from a participating owner, may approve an
amount 35% greater than the maximum where
extraordinary construction or configuration
circumstances require additional construction
activity that cause extraordinary expense to
achieve the program goals. Extraordinary
construction or configuration circumstances do
not include those situations where upgrades to
the property that do or may increase the value
of the property are required to accomplish the
sanitary sewer disconnect. The written request
from a participating homeowner must be
received by the Director no later than 30 days
after substantial completion of the construction
of the approved scope of work.

10
2 . Not w it h st a nd i ng a ny m a x i mu m
reimbursement amount stated elsewhere
within this Section, the City Administrator,
upon a written request from a participating
owner may approve an increase of any amount,
notwithstanding any maximum amount stated
elsewhere with this Code, in the Funding Cap
for a particular premises where extraordinary
construction or configuration circumstances
require additional construction activity that
cause extraordinary expense to achieve the
program goals and those expenses can not
be accommodated within the 35% available
under 2:51.1(12)1. The written request must be
delivered to the City Administrator and must be
received no later than 30 days after substantial
completion of the construction of the approved
scope of work.
3. Unless specific appeal procedures are
otherwise provided in this code, participating
owners aggrieved by a decision regarding
a reimbursement amount may appeal that
decision. Persons aggrieved by the decision
of the Director shall file a written appeal to
the City Administrator within 5 days of the
decision. Persons aggrieved by the decision
of the City Administrator shall file a written
appeal of the City Administrator’s decision to
the City Council within 5 days of the decision.
(13) Maintenance. Participating owners shall be
responsible for maintaining any improvements constructed
under this Program.

11
(14) Director Rules. Within the limitations set forth
by this Section 2:51.1, the Director may establish such
further criteria and rules as are required to implement
this Program.
(15) Surcharge; Disconnection; Enforcement.
1. The Director or designee shall provide written
notice by certified mail to the sewer user,
property owner or other responsible person of
any violation of Section 2:51.1 of this Code. This
notice shall describe the nature of the violation,
the corrective measures necessary to achieve
compliance, the time period for compliance,
the amount of the monthly surcharge until
corrected and the appeal process.
2. For structures or property with actual or
potential improper stormwater inflows, the
sewer user, property owner or other responsible
person shall be given 90 days to correct the
illegal or improper activities or facilities
contributing to the discharge, infiltration of
inflow into the POTW. If corrective measures
to eliminate the illegal or improper discharge,
infiltration or inflow into the POTW are not
completed and approved by the Utility Director
or designee, within 90 days from the date
of the notice provided in section 2:51.1(15)1,
then the director shall impose upon the sewer
user, property owner or other responsible
person a monthly surcharge in the amount
of one hundred dollars ($100.00) per month
until the required corrective measures are

12
completed and approved. If the property owner
or responsible party fails to pay the monthly
surcharge when due and payable, then the city
may terminate the water and sewer connections
and service to the property and disconnect the
customer from the system. Any unpaid charges
shall be collected as provided under Chapter
29 of Title II.
INTRODUCTION AND STATEMENT
OF THE CASE
A. Facts Relevant to the Appeal.
In this case, the Petitioners seek compensation for
physical takings resulting from the implementation by
the respondent, the City of Ann Arbor (the “City”) of a
program for mandatory construction (“the Program”)
inside approximately 2000 homes in selected older
neighborhoods within the City. The ostensible justification
for the ordinance which authorized the Program was the
reduction of sewer overflows into the City’s combined
sewer system.
The City chose to avoid the cost of increasing the
capacity of its waste water treatment plant or upgrading
its deteriorating combined sewer system in a way that
would have equally burdened all of the citizens and/or
taxpayers of Ann Arbor. Instead, the City elected to
target approximately 2,000 homes which were compelled
to undergo extensive mandatory construction inside and
outside of the structures.
The Petitioners allege in their Complaint that they
were forced to endure the physical invasion of their

13
properties and the permanent physical occupation by the
City or its agents as a result of the Program. As part of
the required construction, the City and its agents, through
destructive measures, rerouted storm water which had
previously collected in foundation drains around the
perimeter of the houses at the basement level and, from
there, into the combined sewer in the street (as their
homes had been designed and constructed). The City and
its agents rerouted the water collected in the Petitioners’
foundation drains directly into the Petitioners’ previously
dry basements and crawl spaces at the foundation level
and into a large sump crock excavated and installed by
the City in the Petitioners’ basements (Complaint ¶¶ 7-9,
100 -108, 140, 142-47). 2 The preexisting foundation
drain system had been required by the City when the
Petitioners’ homes were constructed in accordance with
then existing City ordinances and were fully permitted
(Complaint ¶¶ 44, 44, 45-49). The Petitioners allege that
the construction designed and performed by the City
and its agents in connection with the Program, as well as
the equipment selected and permanently affixed to their
property, constitute a permanent physical occupation of
their homes for a public purpose (Complaint ¶¶ 138-140).
In the Petitioners’ homes and in those of the putative
class members, the City accomplished this permanent
physical occupation by, first, entering and inspecting
their homes without a warrant; second, jackhammering
through the original concrete foundation floors around the
internal cleanouts in order to excavate sump pits which
2. The Complaint filed in the District Court for the Eastern
District of Michigan can be found at Case No. 2:17-cv-13428-SJMMKM as Docket No. 1.

14
were generally thirty-six inches in diameter and forty-two
inches deep; third, installing in each sump pit a sump crock
approximately eighteen to twenty-four inches in diameter;
fourth, installing pipes for the discharge of foundation
drain flows into the interior sump crock which, before
the City’s construction, had drained into the existing
combined sewer lateral pipe under the homes; fifth,
penetrating the homes’ building envelopes near street
level and installing a four inch pipe for discharges from
the sump crock; sixth, installing an electrical sump in the
sump crock for the purpose of elevating and discharging
the water collected in the sump crock, along with vertical
and horizontal piping to carry the water to the exterior
of the home; and, seventh, construction of an external
drainage system for discharges from the sump pump,
which usually included a shallow drainage line below the
ground and across the owners’ property to convey these
discharges to yet another shallow pipe installed by the
City in the lawn extension lawn extensions in the front of
the homes (Complaint ¶ 101).
Under the City’s ordinance, the City’s public utilities
director was authorized to determine which homes
would undergo this construction; the homes selected
represented less than 10% of the residences within the
City of Ann Arbor (Complaint ¶ 101). Once a home was
targeted, participation by its owners was mandatory
(Complaint ¶¶ 124, 140, 142-144). The ordinance made clear
that, once a home was selected for mandatory “footing
drain disconnection (“FDD”)”, if a homeowner refused,
first, he or she be would be fined $1,200.00 per year as a
penalty for refusing and, second, risk the imposition of a
lien for the unpaid fines, or, worse, the loss of the home at
auction if accrued fines were not paid (Complaint Ex. 5,
¶ 15).

15
Finally, in addition to the permanent physical
occupation of the Petitioners’ homes, the ordinance imposes
an ongoing obligation upon all targeted homeowners to
assume the costs and burden of maintenance, repair,
monitoring and operation of the installed operating
equipment and water f lows from their respective
basements (Complaint ¶¶ 88, 108, 142-144, Ex. 5, §13).
According to the Petitioners, these ongoing burdens have
been onerous and they have had to deal with flooding
resulting from the failure of installed equipment or
the freezing of curb drains and other drainage pipes
installed above the frost line on or near their properties
(Complaint ¶¶ 108-123, 142-147). Because the ordinance
requires the targeted homeowners to maintain, operate,
power and finance these permanent physical occupations
in perpetuity, the physical occupation of their properties
is ongoing.
B. Relevant History of the Case.
1.

The Yu Case.

On or about February 24, 2014, Petitioners, Anita Yu,
John Boyer and Mary Raab (the “Yu Petitioners”)
commenced an action against the City of Ann Arbor in
the 22nd Circuit Court, County of Washtenaw, Michigan
under Case No. 14-181-CC, bearing the caption: “Anita
Yu, John Boyer and Mary Raab, Plaintiffs v. City of Ann
Arbor, Defendant” (the “Yu Case”). The Summons and
Complaint were served on the City on March 7, 2014
(Complaint ¶ 149).
On March 17, 2014, the City removed the Yu Case to
the United States District Court for the Eastern District

16
of Michigan (Southern Division) by filing a Notice of
Removal and Supporting Petition asserting that the
District Court had jurisdiction over the action based
upon federal question jurisdiction under 28 U.S.C. § 13313 .
Thereafter, on March 24, 2014, the City filed a motion to
dismiss for failure to state claims upon which relief may
be granted and for lack of subject matter jurisdiction
because the claims were not ripe. (Complaint ¶¶ 150-151).
On April 3, 2014, the Yu Petitioners filed a motion
to remand pursuant to 28 U.S.C. § 1447(c) also upon
the grounds that their claims were not ripe in federal
court under the Williamson exhaustion requirement
as enunciated by the United States Supreme Court
in Williamson County Regional Planning Comm. v.
Hamilton Bank, 473 U.S. 172 (1985) and as interpreted
by the Decisions of the Sixth Circuit Court of Appeals at
that time. On May 29, 2014, the District Court, Hon. Avern
Cohn, U.S.D.J. presiding, granted the motion to remand
and the Yu case was sent back to the Washtenaw County
Circuit Court in Ann Arbor for further proceedings
(Complaint ¶¶ 152).
In his Decision from the bench, District Court Judge
Cohn acknowledged that the Yu Petitioners had the
right to return to federal court once they had sought a
remedy under Michigan law: “[a]ll of these claims have
to be adjudicated – there is a remedy under State law,
which includes the Constitution, for these violations, and
if you prevail under State law that’s the end of it. And if
you don’t succeed, you have the right to come into federal
court” [Case No. 2:14-cv-11129-AC-MKM, Docket No. 14].
3. The docket in the removed proceeding can be found under
Case No. 2:14‑cv‑11129‑AC‑MKM.

17
The Yu Petitioners relied on this statement of the law by
the Court.
On September 12, 2014, the Yu Petitioners filed with
the clerk of the Washtenaw County Circuit Court a Notice
of England Reservation in accordance with this Court’s
decision in England v. Louisiana State Bd. of Medical
Examiners, 375 U.S. 4011 (1964) and the Sixth Circuit’s
decisions in DLX, Inc. v. Kentucky, 381 F.3d 511 (6th Cir.
2004) and Braun v. Ann Arbor Charter Twp., 519 F. 3d
564 (6th Cir. 2008). With this England Reservation, the
Yu Petitioners reserved their rights to pursue all federal
claims arising under the laws and Constitution of the
United States of America, including all claims arising
under the Fifth and Fourteenth Amendments to the
United States Constitution (Complaint Ex. 6).
On or about December 10, 2015, the City filed a motion
for summary disposition, arguing that there was no taking
because the Yu Petitioners “owned the FDD installations
and therefore, suffered no physical invasion or occupation.”
On January 15, 2016, an order was signed and entered
granting the City’s motion (Complaint ¶ 156). The Circuit
Court relied upon the opinion of the United States Court
of Appeals for the Third Circuit in Cape Ann Citizens
Ass’n v. City of Gloucester, 121 F.3d 695, Case No. 96-2327
(1st Cir. 1997), a case decided under Agins v Tiburon, 447
U.S. 255 (1980).4
4. Cape Ann is a factually distinguishable regulatory takings case
in which there was no physical taking at all. It was decided by application
of the “substantially advances a legitimate state interest” standard
created in Agins v City of Tiburon, 447 U.S. 255 (1980), a standard that
was forcefully abandoned by this Court in Lingle v. Chevron USA, Inc.,
544 U.S. 528 (2005) as ill-conceived. Cape Ann has been bad law since
then. It has never been cited.

18
2.

The Lumbard Class Action.

On October 30, 2015, Petitioner Lynn Lumbard, on
her own behalf and on behalf of a putative class of persons
similarly situated, commenced an action against the City
in the 22nd Circuit Court, County of Washtenaw, Michigan
as Case No. 15-1100-cc, bearing the caption: “Lynn
Lumbard, individually and on behalf of all others similarly
situated v. The City of Ann Arbor” (the “Lumbard Case”).
The Summons and Complaint were served upon the City
on the day the action was commenced (Complaint ¶ 157).
On January 21, 2016, a Notice of England Reservation
was filed with the Clerk of the Washtenaw County Circuit
Court in the Lumbard Case (Complaint Ex. 7), similar to
the one filed in the Yu case.
On February 11, 2016, the City filed a motion for
summary disposition arguing, once again, on the basis
of the Third Circuit’s Cape Ann opinion, that there
was no taking because Ms. Lumbard “owned” the FDD
installation and, therefore, suffered no physical invasion
or occupation. On March 31, 2016, an Order was signed
and entered, granting the City’s motion. In its order, the
Court granted the City’s motion and dismissed the class
action with prejudice “[f]or the same reasons Defendant
City of Ann Arbor’s motion was granted in Yu, et al v.
City of Ann Arbor, Case No. 14-181-cc (Circuit Court for
Washtenaw County), which was heard and granted on
January 7, 2016, and as otherwise stated on the record in
this case” (Docket No. 9-6, Ex. “D”).
3.

The Consolidated Appeal.

The Yu Petitioners and Petitioner Lynn Lumbard,
timely appealed the orders, dismissing their respective

19
cases, to the Michigan Court of Appeals. These appeals
were later consolidated on consent. By Decision dated
May 9, 2017, the Court of Appeals affirmed the lower
court orders in both cases. Yu v. City of Ann Arbor, 2017
Mich. App. LEXIS 739 (Mich. Ct. App., May 9, 2017). In
its Opinion, the Court of Appeals ruled that, with respect
to all Plaintiffs in the consolidated appeal, “there was
no taking by permanent physical occupation in this case
because the Plaintiffs owned the installations on their
properties” (Complaint ¶¶ 161-162), citing no authority
other than the decision of the lower court itself.
4.

The District Court.

After exhausting their available remedies under
Michigan State law and receiving no compensation for
the permanent physical invasion of their homes, the
Petitioners commenced a single action in the United
States District Court for the Eastern District of Michigan
(“District Court”). 5 On December 15, 2017, the City moved
to dismiss this Complaint pursuant to Fed. R. Civ. 12(d)
(6), arguing that the Petitioners’ Complaint failed to state
any claims upon which relief could be granted. After the
motion was fully briefed, and on February 7, 2018, the
District Court issued its Opinion and Order granting
the City’s motion to dismiss. In its Opinion, the District
Court held that: “Plaintiffs failed to state a claim upon
which relief can be granted because their action is barred
5. The Petitioners were not required by Williamson to
appeal the Michigan Court of Appeals Decision before filing their
Complaint in federal court. HRT. Enters. v. City of Detroit, 2013
U.S. Dist. LEXIS 42611 at *16 (E.D. Mich., March 26, 2013); Costa
v. City of Detroit, 2013 U.S. Dist. LEXIS 10847 at *8 (E.D. Mich.,
January 28, 2013).

20
by res judicata.” The District Court concluded that the
Petitioners had “overstated the exhaustion requirement”
(Appendix B, Page 19A) and should have instead remained
in District Court. The Petitioners then appealed to the
Sixth Circuit.
5.

The Sixth Circuit.

The District Court’s Opinion and Order were affirmed
by the Sixth Circuit on January 10, 2019 (Appendix A). The
Petitioners then timely sought rehearing en banc which
was denied on February 27, 2019 (Appendix C).
REASONS FOR GRANTING THE PETITION
A. Failing to Rescue Claimants Already Ensnared in
the San Remo Preclusion Trap Would Undermine
the Knick Holding.
In Knick, this Court held that taking claimants
alleging that local governments violated the Takings
Clause may proceed directly to federal court and are
not required to exhaust alternate state remedies. In so
doing, this Court overruled, in part, Williamson County
Regional Planning Comm. v. Hamilton Bank of Johnson
City, 473 U.S. 172 (1985) which, inter alia, held that an
aggrieved property owner could not pursue a takings
claim in federal court under the Fifth Amendment or
42 U.S.C. § 1983 without first seeking compensation in
state court. As this Court noted in Knick, at the time
Williamson County was decided, it was expected that,
in the event takings claimants were unable to secure
just compensation using available state procedures, they
could proceed to federal court to have their federal claims
adjudicated.

21
Ten years later, however, in San Remo Hotel, L.P. v.
City and County of San Francisco, 545 U.S. 323 (2005),
this Court determined that a state court’s disposition of
a claim for just compensation under state law precludes a
comparable claim under the Fifth Amendment in federal
court. In Knick, this Court referred to the dilemma faced
by taking claimants as “the San Remo preclusion trap.”
139 S. Ct. at 2167. According to this Court, the trap is set
because “[t]he adverse state court decision that, according
to Williamson County, gave rise to a ripe federal takings
claim simultaneously barred that claim, preventing the
federal court from ever considering it.” Id. at 2169.
The Petitioners in this case have been caught
squarely in the San Remo preclusion trap: they litigated
their claims first in state court and assiduously avoided
litigating any federal claims there in order to preserve
them. Based upon what Petitioners contend is an
unwarranted interpretation of this Court’s decision in
Loretto v. Teleprompter Manhattan CATV Corp., 458
U.S. 419 (1982), they were denied compensation. However,
when they then pursued their federal takings claims in
federal court, those claims were dismissed based on issue
preclusion. Their story typifies the “Catch-22” to which
the Knick Court referred. Id. at 2167.
Clearly, this Court in Knick overruled the Williamson
exhaustion requirement not only because the reasoning in
Williamson County was unsound but because the state
court exhaustion requirement, when coupled with San
Remo preclusion, wrongfully deprives takings claimants
of their federal constitutional rights. “The fact that the
State has provided a property owner with a procedure
that may subsequently result in just compensation

22
cannot deprive the owner of his Fifth Amendment right
to compensation under the Constitution, leaving only the
state law right.” Id, at 2171. This Court’s decision in Knick
makes clear that a claimant’s Fifth Amendment rights
cannot and should not be compromised by anything that
takes place in state court, particularly if the claimant is
in state court involuntarily. “If a local government takes
private property without paying for it, that government
has violated the Fifth Amendment – just as the takings
clause says – without regard to subsequent state court
proceedings.” Id. at 2170.
This Petition should be granted because the federal
courts should be explicitly instructed that Knick applies,
not just to claimants who, prior to this Court’s decision in
Knick, ignored the requirements of Williamson County,
avoided state courts and pursued their Fifth Amendment
takings claim directly in federal court, but also to takings
claimants, like the Petitioners here, who observed the
requirements of Williamson County, exhausted their
state court remedies, and were then shut out of federal
court because of San Remo. In other words, by granting
the Petition, this Court can afford takings claimants like
the Petitioners a federal forum to adjudicate their Fifth
Amendment claims, regardless of the disposition of the
state court claim they were forced to advance under then
existing law. 6

6. Correspondingly, application of the Knick holding to
Petitioners would restore Petitioners’ claims under 42 U.S.C.
§ 1983. “A property owner may bring a takings claim under § 1983
upon the taking of his property without just compensation by a
local government.” Id. at 2179.

23
Having dismantled the San Remo preclusion trap to
spare future takings claimants, this Court should also
free past claimants, like the Petitioners, who have already
been caught in its grasp. Unless Petitioners and other
takings claimants still in the pipeline are freed from the
San Remo preclusion trap and allowed to pursue their
Fifth Amendment claims in federal court, their Fifth
Amendment rights will remain forever out of reach.
“Fidelity to the Takings Clause and/or cases construing
it requires overruling Williamson County and restoring
takings claims to the full-fledged Constitutional status
the Framers envisioned when they included the Clause
among the other protections in the Bill of Rights.” Id. at
2170. 7 In short, claimants like the Petitioners who have
already been deprived of their Fifth Amendment rights
as a result of the mischief caused by Williamson County
and San Remo are just as entitled to litigate their Fifth
Amendment claims in federal court as a claimant who
7. If any takings claims should be restored to “full-fledged
Constitutional status” it is the claims advanced by the Petitioners
in this case. Under federal law, “[w]hen faced with a Constitutional
challenge to a permanent physical occupation of real property,
this Court has invariably found a taking.” Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 427 (1982). Loretto and its
progeny, including Horne v. Dep’t of Agriculture, 569 U.S. 513
(2013), stand for the proposition that the most serious and least
defensible form of taking under federal law is a taking by physical
invasion or permanent physical occupation. “The paradigmatic
taking requiring just compensation is a direct government
appropriation or physical invasion of private property.” Lingle
v. Chevron U.S.A., Inc., 544 U.S. 528, 536 (2005). Indeed, when a
government action results in a permanent physical occupation of
property, a taking is found, and further analysis is unnecessary
as to “whether the action achieves an important public benefit or
has only minimal economic impact on the owner.” Loretto, supra,
at 434.

24
ignored Williamson County and began litigating there
in the first instance.
B. The Rules Gover ning Retroactiv ity Favor
Application of Knick to the Petitioners’ Case.
This Petition presents for consideration the question
of whether the District Court and, in turn, the Sixth
Circuit erred in dismissing the Petitioner’s Complaint and,
thereby, consigned them to the San Remo preclusion trap
forever. Because the case is still open on direct review to
this Court, Knick should be applied, the determinations
below should be vacated and the Complaint should be
reinstated in order to fulfill Knick’s promise that property
owners may pursue their Fifth Amendment takings claims
in federal court.
When this Court applies a rule of federal law to
the parties before it, that rule is the controlling
interpretation of federal law and must be given
full retroactive effect in all cases still open on
direct review and as to all events, regardless
of whether such events predate or postdate our
announcement of the rule.
Harper v. Va. Dep’t of Taxation, 509 U.S. 86, 97 (1993).
In Harper, this Court reversed a state court which had
refused to retroactively apply a non-discrimination
principle in a dispute over retirement benefits. The Court
addressed a previously unresolved question as to whether
or not the presumptively retroactive effect of Supreme
Court decisions could be limited in civil cases. Relying on
an issue resolved by a majority of the justices in James B.
Beam Distilling Co. v. Georgia, 501 U.S. 521 (1991), this
Court eschewed the selective application of new rules. Id.

25
“In both civil and criminal cases, we can scarcely permit
‘the substantive law [to] shift and spring ‘according to
‘the particular equities of [individual parties’] claims’
of actual reliance on an old rule and of harm from a
retroactive application of a new rule.” Harper, supra at
97, quoting Beam at 543. As Justice Blackmun said in his
concurrence in Beam, “. . . I agree that failure to apply
a newly declared Constitutional rule to cases pending
on direct review violates basic norms of Constitutional
adjudication.” Beam at 547.
In this case, the harm wrought by Williamson County
and San Remo can be remedied by explicitly extending
the holding in Knick to the Petitioners. 8 If the objective
of Knick is to protect property owners with legitimate
Fifth Amendment takings claims from the risk that they
will be effectively barred from federal court due to the
“unanticipated consequences” of Williamson County, 139
S. Ct. at 2169, then this Court can further that objective
by granting the Petition and, upon review, reversing the
lower courts whose hands were tied by the now discredited
Williamson County and San Remo opinions.
C. The Petitioners Did Not Waive Their Rights to
Remain in Federal Court Following the Removal
of the Yu Case by the City.
In its opinion, the Sixth Circuit found that the
Petitioners had waived their right to litigate their cases
in federal court:
8. Indeed, but for the San Remo preclusion trap having been
sprung on the Petitioners, they would have satisfied the state court
exhaustion requirement of Williamson County, thus ripening their
claim for adjudication in federal court.

26
Because Williamson is a waivable defense
for state defendants, and it was the City
that removed this case to federal court, the
Appellants could have litigated their claims in
federal court. By moving to remand to state
court, they waived that opportunity.
(Appendix A. Page 8a). This conclusion is simply
inconsistent with the history of the case and the evolution
of the “waiver by removal” doctrine that is part of the
post-Williamson County jurisprudence.9
The Yu case was commenced on February 27, 2014.
The City of Ann Arbor removed the case to the United
Stated District Court for the Eastern District of Michigan
on March 17, 2014, and, on March 24, 2014, moved for
dismissal of the complaint for failure to state a claim and
lack of subject matter jurisdiction based upon Williamson
County [Case No. 2:14-cv-11129-AC-MKM, Docket No.
9. Before the Yu Petitioners sought remand, the only Circuit
Court case in which there was any suggestion that removal from
state court to federal court by a municipality might serve as a
waiver was Sansotta v. Town of Nags Head, 724 F. 3d 533 (4th Cir.
N.C. 2013). The other Circuit Court opinion finding a waiver which
pre-dated oral argument on the Yu Petitioners’ motion to remand,
Sherman v. Town of Chester, 752 F.3d 554 (2d Cir. 2014), was not
decided until two weeks before oral argument in the Yu case. As of
April 4, 2014, the law in the Eastern District of Michigan clearly
required the Yu Petitioners to seek remand. See, Eaton v. Charter
Twp. of Emmett, 2008 U.S. App. LEXIS 6603 (6th Cir., March 21,
2008); Oakland 40, LLC v. City of South Lyon, 2011 U.S. Dist.
LEXIS 53158 (E.D. Mich., May 18, 2011). Accordingly, the Sixth
Circuit’s position that the Petitioners, in seeking remand, made a
strategic decision is not supported by the chronology of the “waiver
by removal” exception to Williamson County.

27
2]. 10 On April 3, 2014, the Yu Petitioners, reasonably
believing that they were bound by the Williamson
County exhaustion doctrine to first litigate in state court,
prudently moved for remand. Following oral argument
on May 28, 2014, the District Court Judge, Hon. Avern
Cohn, granted the motion to remand, holding that: “[a]
ll I know is that I don’t have subject matter jurisdiction
to deal with a claim of inverse condemnation under the
Federal Constitution until there is an adjudication – an
exhaustion, rather, of the remedies available under State
Law.” [Case No. 2:14-cv-11129-AC-MKM, Docket No. 14].
Presumably, Judge Cohn did not consider the Williamson
exhaustion requirement a “waivable defense” at that time.
In its opinion, the Sixth Circuit cites as authority
for its determination that the Williamson exhaustion
requirement was a “waivable defense,” Stop the Beach
Renourishment, Inc. v. Florida Dep’t of Envtl. Prot.,
560 U.S. 702, 729 (2010 and Lilly Investments v. City of
Rochester, 674 Fed. Appx. 523, 531 (6th Cir. 2017). These
two cases, however, would not have served as an invitation
to the Yu Petitioners to ignore the removal or provide
any assurance that, if they litigated the entire Yu Case
in federal court without seeking remand, a successful
outcome would survive because of their failure to first
litigate in Michigan state court.
In Stop the Beach, the case was initiated in federal
court and litigated there; neither party objected to the
10. In A Forever Recovery, Inc. v. Twp. of Pennfield, 606
Fed. Appx. 279 (6th Cir.2015), the Sixth Circuit characterized the
practice of removing a state court initiated takings case to federal
court followed by a motion to dismiss for lack of ripeness as “ badfaith motivation to remove for the purpose of prolonging litigation and
imposing costs on the opposing party.” 606 Fed. Appx. at 284.

28
case being disposed of in federal court. The case was not
removed to federal court from state court so the Supreme
Court never addressed the issue of whether a municipality
that removes an inverse condemnation case waives the
Williamson exhaustion requirement through removal. As
a result, this case provided the Yu Petitioners and their
counsel little comfort that litigating the case in federal
court in Michigan, following the City’s removal, would
have insulated them forever from the harsh consequences
of Williamson County. And, even though the City removed
the Yu Case to federal court, it still moved to dismiss the
Yu Plaintiffs’ federal claims as unripe [Case No. 2:14-cv11129-AC-MKM, Docket No. 2].
Lilly Investments surely could not have served as
a guide to the Yu Petitioners either. While the Sixth
Circuit in Lilly Investments held that a municipality
which removes to federal court an inverse condemnation
case commenced in state court waives the Williamson
exhaustion requirement, the decision in that case was
made public on January 5, 2017, nearly three years after
the Yu Petitioners moved to remand their case back
to state court.11 The state of the law as of April of 2014
strongly suggested that whatever time and resources were
expended in federal court would be wasted because the
failure to exhaust the state court remedy would ultimately
be invoked to invalidate any successes achieved in federal
court.
Importantly, the Sixth Circuit (and the District Court)
glossed over the materially different procedural histories
in the Yu and Lumbard Cases when it found that all the
11. The Sixth Circuit acknowledged that its opinion in Lilly
Investments came long after the motion for remand was decided
in the Yu case (Appendix A, Page 7a).

29
plaintiffs had forfeited the purported waiver by removal
defense: “the Appellants could have litigated their claims
in federal court.” (Appendix A, Page 8a) (emphasis added).
In fact, the City never removed the Lumbard Case so
there was no “defense” to waive.12
CONCLUSION
For the reasons set forth above, the petition for writ of
certiorari should be granted. While the Petitioners submit
that summary reversal of the Sixth Circuit opinion and
judgment and reinstatement the Petitioners’ complaint
are warranted, they respectfully request that, if a
summary disposition is deemed inappropriate, the matter
be heard by this Court due to its nationwide significance
and because the logical extension of the Knick ruling to
include the Petitioners and those similarly situated is well
warranted.
Dated: July 26, 2019		

Respectfully submitted,
Donald W. O’Brien, Jr.
Counsel of Record
Woods Oviatt Gilman LLP
1900 Bausch & Lomb Place
Rochester, New York 14604
(585) 987-2800
dobrien@woodsoviatt.com
Counsel for Petitioners

12. Of course, this contention by both the District Court
and the Sixth Circuit that the Petitioners somehow waived their
right to litigate their takings claims in federal court by seeking
remand of the Yu Case just compounds the harm caused by the
Williamson exhaustion requirement.

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT, FILED JANUARY 10, 2019
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1258
LYNN LUMBARD; ANITA YU; JOHN BOYER;
MARY RAAB,
Plaintiffs-Appellants,
v.
CITY OF ANN ARBOR,
Defendant-Appellee.
December 5, 2018, Argued,
January 10, 2019, Decided and Filed
Appeal from the United States District Court for the
Eastern District of Michigan at Detroit.
No. 2:17-cv-13428—Stephen J. Murphy, III
District Judge.
Before: BATCHELDER, COOK, and KETHLEDGE,
Circuit Judges
OPINION
ALICE BATCHELDER, Circuit Judge. In 2000,
the City of Ann Arbor passed an ordinance requiring

2a
Appendix A
certain homeowners to undergo structural renovations to
their homes to alleviate storm water drainage problems
affecting the city and surrounding areas. The City paid or
reimbursed the homeowners for the renovations. In 2014,
the Appellants, homeowners affected by the ordinance,
pursued litigation in Michigan state courts alleging
that the City’s actions amounted to a taking without
just compensation under the Michigan Constitution. At
the outset of litigation, the Appellants filed an England
Reservation in an attempt to preserve a federal takings
claim for subsequent adjudication in federal court.
The Appellants lost in state court and then filed suit in
federal court alleging causes of action under the Fifth
Amendment of the United States Constitution and under
42 U.S.C. § 1983. The federal district court dismissed the
Fifth Amendment claim as issue precluded and the § 1983
action as claim precluded. We AFFIRM.
I.
The Appellants in this case are property owners in
and around the City of Ann Arbor, Michigan (“City”).
The houses on their properties were built between 1946
and 1973. At the time of their construction, in accordance
with City regulations, the houses were outfitted with
drainage piping that emptied both storm water and
sanitary sewage into a single “combined sewer system.”
In 1973, the City modernized its sewer system by adding a
separate sewer system exclusively for storm water. After
the completion of the new sewer system in 1973, the City
passed an ordinance requiring that any new structures be
built to discharge storm water to the storm sewer system

3a
Appendix A
and sanitary sewage to the old combined sewer system.
Existing structures were exempted from the ordinance.
The City’s population continued to grow and the
strain on the sewer systems came to a head in the years
between 1997 and 2002. In each of those years the City
experienced several tremendous rainfall events which
resulted in overflows of the old combined sewer system
including sewage overflow into public streets and the
Huron River, and backups of sewage into City residents’
basements. In early 2001, the City established a City
Task Force and retained engineering consultants to
study the problem and devise a solution. The City Task
Force ultimately recommended a public works program
that would disconnect the exempted homes in the older
neighborhoods of the City from the old combined sewer
system. The “Disconnect Program” would reroute the
storm water drainage from selected homes to the storm
sewer system, while maintaining the sanitary sewage
outflow to the sanitary sewer system.
In August 2001, the City enacted Ordinance 32-01
(“Ordinance”). This Ordinance effectively repealed the
1973 exemption by declaring that all homeowners with
pre-existing combined outflow drainage piping were in
violation of City regulations. The Ordinance empowered
the Director of the Utility Department (“Director”) to
select properties within the “Target Areas”1 to be required
to undertake the sewer work required by the Disconnect
1. The “target areas” were the older neighborhoods of the City
that were built prior to construction of the storm water sewer system.

4a
Appendix A
Program. Owners of selected properties had 90 days to
comply, after which they would be fined $100 per month
of noncompliance. All selected properties were eligible for
a publicly funded installation by contractors preselected
by the Director or up to $3,700 in reimbursement for an
installation done by private contractors selected by the
property owners.
The Disconnect Program required the excavation of
a three-foot-by-four-foot sump pit in the foundation of
the structure, connection of an electric pump, and the
installation of piping that would send the ground water
and storm water from the house to the storm water sewer
nearby. This project could involve jackhammering into
the foundation, penetrating walls, ripping up lawns, and
hanging visible piping in and around the house through
which the electric pump would pump water to the outside.
After installation of the system, the homeowner would be
responsible for its maintenance and operation costs. The
Appellants lived in the “Target Areas,” were selected for
the Disconnect Program, and complied with the Program’s
requirements between the years of 2001-2003.
In February 2014, a group of homeowners, including
Anita Yu (“Yu”), filed a complaint in Michigan state
court against the City, alleging violation of the Michigan
Constitution for a taking without just compensation
(inverse condemnation) by a physical, permanent
occupation of her property for a public purpose. The City
removed the case to federal district court and Yu moved to
remand to state court on the basis that her federal claims
were unripe pursuant to the Williamson exhaustion

5a
Appendix A
doctrine. See Williamson Cnty. Reg’l Planning Comm’n v.
Hamilton Bank of Johnson City, 473 U.S. 172, 194, 105 S.
Ct. 3108, 87 L. Ed. 2d 126 (1985). The federal district court
agreed and remanded the case to state court. Yu then
filed a Notice of England Reservation informing the state
court that she wanted to litigate only the state claims. See
England v. Louisiana State Bd. of Med. Examiners, 375
U.S. 411, 415, 84 S. Ct. 461, 11 L. Ed. 2d 440 (1964). After
discovery, the state court granted the City’s motion to
dismiss, finding that Yu owned the installation from the
Disconnect Program and that the “issue of ownership
. . . falls squarely on point” as dispositive in deciding the
claim under Michigan takings law.
In October 2015, a group of similarly situated
homeowners, the Lumbard plaintiffs (“Lumbard”), filed a
complaint against the City in Michigan state court alleging
identical state-law claims. Lumbard also attempted to
preserve federal claims by filing a Notice of England
Reservation with the court. The Michigan state court
found that the legal issues were the same as those in the
Yu case and granted the City’s motion to dismiss.
In September 2016, the court consolidated the Yu
and Lumbard cases for appeal in the Michigan Court
of Appeals. The court found that Yu and Lumbard
did not contest that they owned the installations, so
the only question was whether, as a matter of law, a
takings challenge for physical invasion 2 could occur if
2. The Michigan Court of Appeals noted that Plaintiffs did not
allege a regulatory taking, but a “physical invasion” taking theory.

6a
Appendix A
the homeowners owned the installations. Noting that
the “[Michigan] Takings Clause is ‘substantially similar’
to its federal counterpart,” the court applied Supreme
Court takings caselaw, namely Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 102 S. Ct. 3164,
73 L. Ed. 2d 868 (1982). Yu v. City of Ann Arbor, No.
331501, 2017 Mich. App. LEXIS 739, 2017 WL 1927846,
4 (Mich. Ct. App. May 9, 2017). The Michigan Court of
Appeals found that “a permanent physical occupation does
not occur so long as the owner can exercise the rights of
ownership over the installation,” and affirmed both trial
court decisions. Id.
In October 2017, Yu and Lumbard filed a complaint
against the City in the United States District Court for the
Eastern District of Michigan alleging several “causes of
action” arising under the Fifth Amendment of the United
States Constitution and 42 U.S.C. § 1983. The City moved
to dismiss asserting that the claims were barred by issue
and claim preclusion or, in the alternative, time-barred.
The district court issued an opinion and order granting
the City’s motion to dismiss, holding that the Fifth
Amendment takings claim was barred by issue preclusion
and the § 1983 claim was barred by claim preclusion.
II.
We review de novo an order dismissing for failure
to state a claim under Federal Rule of Civil Procedure
12(b)(6). Theile v. Michigan, 891 F.3d 240, 243 (6th Cir.
2018). While the district court succinctly and ably applied
the labyrinth of federal takings caselaw in its decision to

7a
Appendix A
grant summary judgment, the Appellants raise several
arguments that we address explicitly.
First, the Appellants argue that Williamson, supra,
is a jurisdictional bar to adjudication in federal court and
thus they were forced to seek remand of their action to
state court. But in Stop the Beach Renourishment, Inc. v.
Florida Department of Environmental Protection, 560
U.S. 702, 729, 130 S. Ct. 2592, 177 L. Ed. 2d 184 (2010),
the Supreme Court considered two objections from the
state agency, one of which was based on Williamson,
for not having first “sought just compensation,” and the
Court dismissed the objections saying, “[n]either objection
appeared in the briefs in opposition to the petition for
writ of certiorari, and since neither is jurisdictional, we
deem both waived.” Id. The Court has also held that
“[n]onjurisdictional defects of this sort should be brought to
our attention no later than in respondent’s brief in opposition
to the petition for certiorari; if not, we consider it within
our discretion to deem the defect waived.” Oklahoma City
v. Tuttle, 471 U.S. 808, 815-816, 105 S. Ct. 2427, 85 L. Ed.
2d 791 (1985). The Appellants urge that because Stop the
Beach began in federal court, and thus was never removed,
it does not apply to cases such as theirs which were initially
removed to federal court. We disagree. The procedural
posture of removal and remand neither strips nor grants
subject-matter jurisdiction. Indeed, this court has already
affirmed that the exhaustion requirement of Williamson
is waivable, see Lilly Invs. v. City of Rochester, 674 Fed.
Appx. 523, 531 (6th Cir. 2017), 3 as have our sister circuits
3. This holding post-dates the Appellants’ initiating their
litigation in federal district court.

8a
Appendix A
in the years since Stop the Beach. See Sansotta v. Town of
Nags Head, 724 F.3d 533, 544 (4th Cir. 2013); Sherman v.
Town of Chester, 752 F.3d 554, 564 (2d Cir. 2014). Because
Williamson is a waivable defense for state defendants,
and it was the City that removed this case to federal court,
the Appellants could have litigated their claims in federal
court. By moving to remand to state court, they waived
that opportunity.
Second, the Appellants spend considerable time
urging that England Reservations are available absent
a Pullman abstention order, such as when litigants are
forced into state court under Williamson. The Appellants
cite our decision in DLX, Inc. v. Commonwealth of
Kentucky, 381 F.3d 511 (6th Cir. 2004), as an example of
our upholding England Reservations in a nearly identical
factual situation. But even if that is true, that language is
dicta; the decision in DLX affirmed dismissal of the claim
based on Eleventh Amendment Immunity, regardless of
the DLX plaintiff’s England Reservation. DLX, 381 F.3d
at 528.4 In any event, we need not take a position on the
outer limit of an England Reservation’s effect outside of
Pullman abstention because our doing so would have no
impact on our holding here.
Third, the Appellants argue that our opinion in DLX
means that, in the Sixth Circuit, claims properly reserved
under England are not subject to claim preclusion when
4. The separate opinion of Judge Baldock concurring only in
the judgment seems to most accurately reflect where these tangled
legal doctrines have ended up. DLX, 381 F.3d at 528-34 (Baldock,
J., concurring).

9a
Appendix A
litigants are involuntarily forced into state court under
Williamson. On this point, the Appellants correctly
characterize our ruling in DLX. However, the Supreme
Court in San Remo Hotel, L.P. v. City and County of San
Francisco, 545 U.S. 323, 125 S. Ct. 2491, 162 L. Ed. 2d 315
(2005), clearly overruled this circuit, along with others,
with respect to our DLX claim-preclusion exemption. San
Remo, 545 U.S. at 345 (overruling Santini v. Conn. Haz.
Waste Mgmt. Serv., 342 F.3d 118 (2d Cir. 2003)). The San
Remo court held that there are no judicial exceptions
to the Full Faith and Credit Statute, 28 U.S.C. § 1738,
“simply to guarantee that all takings plaintiff can have
their day in federal court.” Id. at 339. “Even when the
plaintiff’s resort to state court is involuntary . . . we
have held that Congress must clearly manifest its intent
to depart from § 1738.” Id. at 345 (internal quotation
marks omitted). When § 1738 applies to a state court
decision, both issue preclusion and claim preclusion apply.
“This statute has long been understood to encompass
the doctrines of res judicata, or ‘claim preclusion,’ and
collateral estoppel, or ‘issue preclusion.’” Id. at 336 (citing
Allen v. McCurry, 449 U.S. 90, 94-96, 101 S. Ct. 411, 66 L.
Ed. 2d 308 (1980)). The preclusion doctrines under § 1738
apply to subsequent litigation in federal court to the same
extent that they would in the state courts in which the
judgment was rendered. See Migra v. Warren City Sch.
Dist. Bd. of Educ., 465 U.S. 75, 81, 104 S. Ct. 892, 79 L.
Ed. 2d 56 (1984). Here, the district court applied Michigan
preclusion doctrines to find that the federal takings claim
under the Fifth Amendment was issue precluded and the
§ 1983 claim was claim precluded.

10a
Appendix A
It is important to point out that while the district
court, relying on Michigan law, found the subject matter
of the Takings Clause of the Michigan Constitution and
Takings Clause of the Fifth Amendment of the United
States Constitution to be the same, such a finding is
irrelevant to the ultimate disposition of the case. If
the takings jurisprudence of the two constitutions is
“coextensive” (to use the language of the San Remo
court), then issue preclusion bars subsequent litigation
of the federal takings claim after litigation of the state
takings claim on the merits. If the takings jurisprudence
of the two constitutions is not “coextensive,” then claim
preclusion bars subsequent litigation of the federal takings
claim because it should have been brought with the state
claim in the first instance in the Michigan court. Because
in either event the Appellants’ federal takings claim is
precluded, we decline to opine on the “coextensiveness”
of Michigan’s Taking Clause jurisprudence.
III.
Appellants are precluded by the Full Faith and Credit
Statute, 28 U.S.C. § 1738, from litigating these claims in
federal court. We AFFIRM.

11a
Appendix A
CONCURRENCE
KETHLEDGE, Circuit Judge, concurring. To find a
good illustration of the law of unintended consequences,
one need look no further than the Supreme Court’s
decision in Williamson County Regional Planning
Comm’n v. Hamilton Bank of Johnson City, 473 U.S. 172,
105 S. Ct. 3108, 87 L. Ed. 2d 126 (1985). The Court’s actual
holding was pedestrian: that Hamilton Bank’s takings
claim was unripe because the bank had not exhausted
its administrative remedies, specifically its right to ask
the County for a variance to develop the property in the
manner proposed. Id. at 193-94. In dictum, however—
dictum in the sense that the Court’s pronouncement was
at that point unnecessary to its decision—the Court went
on to say that the bank’s claim was “not yet ripe” for a
“second reason[.]” Id. at 194. That reason too was couched
in terms of exhaustion: that under state law “a property
owner may bring an inverse condemnation action to obtain
just compensation for an alleged taking of property”;
and that, until the bank “has utilized that procedure, its
takings claim is premature.” Id. at 196-97. The Court’s
implicit assurance, of course, was that once a plaintiff
checks these boxes, it can bring its takings claim back to
federal court.
That assurance has proved illusory, as the plaintiffs
in this case are only the latest to learn. For Williamson
County seemed to overlook that, unlike a state or local
body in an administrative proceeding, state courts issue
judgments. And state-court judgments are things to which
the federal courts owe “full faith and credit[.]” 28 U.S.C.

12a
Appendix A
§ 1738; see also U.S. Const. art. IV, § 1. That obligation
means that takings claims litigated in state court cannot
be relitigated in federal. See San Remo Hotel, L.P. v. City
and County of San Francisco, Cal., 545 U.S. 323, 33738, 125 S. Ct. 2491, 162 L. Ed. 2d 315 (2005). Thus—by
all appearances inadvertently—Williamson County “all
but guarantees that claimants will be unable to utilize
the federal courts to enforce the Fifth Amendment’s
just compensation guarantee” against state and local
governments. Id. at 351 (Rehnquist, C.J., concurring in
the judgment).
Yet Williamson County has its defenders, notably state
and local governments, who say that, if a state’s procedure
for providing “just compensation” happens to be a lawsuit
in state court, an aggrieved property owner should be
obligated to seek compensation there. The problem with
that argument (apart from the catch-22 described above)
is its premise: that, taking or not, the property owner
cannot show a denial of “just compensation” until the state
courts deny relief. But the Takings Clause does not say
that private property shall not “be taken for public use,
without just compensation, and without remedy in state
court.” Instead the Clause says that private property shall
not “be taken for public use, without just compensation”
period. U.S. Const. Amend. V. And that plainly means
that, if the taking has happened and the compensation
has not, the property owner already has a constitutional
entitlement to relief. See Arrigoni Enterprises, LLC v.
Town of Durham, Conn., 136 S.Ct. 1409, 1409-10, 194 L.
Ed. 2d 821 (2016) (Thomas, J., dissenting from denial of
certiorari). Whether a local planning commission or the

13a
Appendix A
state courts have recognized that entitlement is beside
the point for purposes of whether the constitutional
entitlement exists. That is why pre-judgment interest on
a federal takings claim runs from the date the property
was taken, not from some later date on which a state court
denied relief. See, e.g., Phelps v. United States, 274 U.S.
341, 344, 47 S. Ct. 611, 71 L. Ed. 1083, 63 Ct. Cl. 689 (1927).
Williamson County thus turns away from federal
court constitutional claimants who have every right to
seek relief there. And in doing so Williamson County
leaves those claimants without any federal forum at all.
Williamson County itself did not foresee that result,
and thus offered no justification for it. Nor has any later
case explained why takings claims should be singled
out for such disfavored treatment. And meanwhile, as
this case and others illustrate, Williamson County has
left the lower federal courts with plenty to do in cases
where plaintiffs seek to assert federal takings claims
against state or local defendants. Rather than actually
adjudicate those claims, however, we adjudicate federalcourt esoterica: things like Pullman abstention, the scope
of state jurisdictional and venue provisions, the efficacy
of so-called “England reservations,” and whether state
law disfavors the adjudication of federal takings claims in
violation of Haywood v. Drown, 556 U.S. 729, 129 S. Ct.
2108, 173 L. Ed. 2d 920 (2009). See, e.g., Wayside Church v.
Van Buren County, 847 F.3d 812, 818-822 (6th Cir. 2017);
id. at 823-25 (dissenting opinion).
As to Haywood, in particular, “[o]ne further irony
remains.” Id. at 825 (dissenting opinion). There, the

14a
Appendix A
Supreme Court held that state jurisdictional statutes that
discriminate against “disfavored federal claim[s]” are
invalid under the Supremacy Clause. 556 U.S. at 738-39.
But so far as disfavored federal claims are concerned,
the federal courts should consider their own advice: for
“if anyone has undermined the adjudication of federal
takings claims against states and local governments, it
is the federal courts—by the application of Williamson
County.” Id. at 825 (dissenting opinion).
Federal courts have a “ virtually unf lagg ing”
obligation to exercise the jurisdiction that Congress has
given them. Sprint Commc’ns, Inc. v. Jacobs, 571 U.S. 69,
77, 134 S. Ct. 584, 187 L. Ed. 2d 505 (2013). Congress has
given us jurisdiction to hear these takings claims. Our
constitutional order would be better served, I respectfully
suggest, if we simply adjudicated them.

15a
AppendixAND
B ORDER OF THE
APPENDIX B — OPINION
UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN, SOUTHERN
DIVISION, FILED FEBRUARY 7, 2018
UNITED STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF MICHIGAN,
SOUTHERN DIVISION
Case No. 2:17-cv-13428
LYNN LUMBARD, et al.,
Plaintiffs,
v.
CITY OF ANN ARBOR,
Defendant.
February 7, 2018, Decided;
February 7, 2018, Filed
HON. STEPHEN J. MURPHY, III
OPINION AND ORDER GRANTING ANN ARBOR’S
MOTION TO DISMISS [6]
Plaintiffs are residents of Ann Arbor affected by
a city ordinance regulating residential drainage and
sewage systems. They allege that the implementation and
enforcement of the ordinance violates, inter alia, their
rights under the Fifth Amendment. Before the Court is

16a
Appendix B
Ann Arbor’s motion to dismiss pursuant to Federal Rule
of Civil Procedure 12(b)(6). After reviewing the briefs,
the Court finds that a hearing is unnecessary. E.D. Mich.
LR 7.1(f). For the reasons set forth below, the Court will
grant the motion.
BACKGROUND
After bouts of heavy rainfall, Ann Arbor’s sanitarysewer system kept overflowing. ECF 6, PgID 150. To
remedy the issue, Ann Arbor passed an ordinance
requiring some citizens to connect their drainage systems
to Ann Arbor’s storm-sewer system instead of the
sanitary-sewer system. Id. In some cases, this change
required installation of sump pits, sump pumps, and
related equipment. Id. Plaintiffs believed the ordinance
violated their rights, so they filed lawsuits in Michigan
courts alleging violations of Michigan’s Takings Clause.
ECF 6-5, 6-6, 6-7. Ann Arbor removed one of the cases
to federal court. Yu v. City of Ann Arbor, Case No.
2:14-cv-11129, ECF 1. But the plaintiffs filed a motion to
remand, which the Court granted. Id., ECF 7, 12. After
the remand, the Michigan trial courts dismissed the
lawsuits with prejudice; Plaintiffs then appealed. ECF 6-2.
The Michigan Court of Appeals consolidated the appeals,
heard the case, and affirmed the dismissals. Id. Plaintiffs
then filed the present suit in federal court seeking relief
under the federal Takings Clause.
STANDARD OF REVIEW
The Court may grant a Rule 12(b)(6) motion to dismiss
if the complaint fails to allege facts “sufficient ‘to raise a

17a
Appendix B
right to relief above the speculative level,’ and to ‘state a
claim to relief that is plausible on its face.’” Hensley Mfg.
v. ProPride, Inc., 579 F.3d 603, 609 (6th Cir. 2009) (quoting
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555, 570, 127
S. Ct. 1955, 167 L. Ed. 2d 929 (2007)). The Court views
the complaint in the light most favorable to the plaintiff,
presumes the truth of all well-pled factual assertions,
and draws every reasonable inference in favor of the nonmoving party. Bassett v. Nat’l Collegiate Athletic Ass’n,
528 F.3d 426, 430 (6th Cir. 2008). If “a cause of action fails
as a matter of law, regardless of whether the plaintiff’s
factual allegations are true or not,” then the Court must
dismiss. Winnett v. Caterpillar, Inc., 553 F.3d 1000, 1005
(6th Cir. 2009).
DISCUSSION
Plaintiffs allege five “causes of action”: (1) violations
of the Fifth Amendment; (2) 42 U.S.C. § 1983 claims
for violations of the Fifth Amendment and the “right to
be free from mandatory work”; (3) injunctive relief; (4)
declaratory relief; and (5) attorney’s fees. ECF 1. The
complaint confuses the important differences between
substantive rights, causes of action, and remedies. Even
forgiving that technical imprecision, however, Plaintiffs
fail to state a claim upon which relief can be granted
because their action is barred by res judicata. The Court
will therefore dismiss the case.
I.

Res Judicata

Generally, res judicata principles govern the
relationship between separate lawsuits about the same

18a
Appendix B
subject matter. 18 Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 4401 (3d ed.
2017). The concept governs two subtly different scenarios:
(1) the litigation of matters that have been previously
litigated and decided; and (2) the litigation of matters that
have not been previously litigated but should have been
raised in an earlier lawsuit. The first scenario is known as
issue preclusion, the second is known as claim preclusion.1
Id. at § 4402. Under the doctrines, if certain conditions are
met, then a plaintiff is barred from litigating particular
issues or claims. The principles serve the dual purpose of
protecting litigants from the burden of relitigating issues
and promoting judicial economy. Parklane Hosiery Co.,
Inc. v. Shore, 439 U.S. 322, 326, 99 S. Ct. 645, 58 L. Ed.
2d 552 (1979). For the reasons set forth below, the Court
finds that the decision in Yu v. City of Ann Arbor bars
litigation of the issues presented here. No. 331501, 2017
Mich. App. LEXIS 739, 2017 WL 1927846, at *1 (Mich.
Ct. App. May 9, 2017).
A. Applicability of Res Judicata
As a preliminary matter, the Court finds that res
judicata applies. Plaintiffs contend that, pursuant to
Williamson Cty. Reg’l Planning Comm’n v. Hamilton
1. As Professors Wright and Miller note in their influential
treatise, the terminology has fluctuated over time—which has often
led to confusion in the doctrine. Claim preclusion is sometimes called
res judicata or true res judicata; issue preclusion is sometimes called
collateral estoppel. 18 Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 4402 (3d ed. 2017). For clarity,
the Court will use the terms issue preclusion and claim preclusion.

19a
Appendix B
Bank of Johnson City, 473 U.S. 172, 105 S. Ct. 3108, 87
L. Ed. 2d 126 (1985), they were required to litigate their
Takings Clause claims in state court before proceeding
in federal court. And because of that “requirement,”
Plaintiffs contend that they properly proceeded in state
court while preserving their federal claims in accord with
England v. Louisiana State Bd. of Med. Examiners, 375
U.S. 411, 84 S. Ct. 461, 11 L. Ed. 2d 440 (1964). Plaintiffs’
argument is unpersuasive for several reasons.
First, Plaintiffs overstate the exhaustion requirement.
Exhaustion of Takings-Clause claims is not a mandatory
jurisdictional requirement but rather a waivable defense.
Stop the Beach Renourishment, Inc. v. Florida Dep’t of
Envtl. Prot., 560 U.S. 702, 729, 130 S. Ct. 2592, 177 L.
Ed. 2d 184 (2010); Lilly Investments v. City of Rochester,
674 F. App’x 523, 531 (6th Cir. 2017). So when Ann Arbor
removed the original state case to federal court, Plaintiffs
did not need to litigate in state court to exhaust their
Takings Clause remedies.
Second, Plaintiffs’ “reser vations of rights” is
inoperative. Congress has ordered that state judicial
proceedings shall have “full faith and credit in every
court within the United States[.]” 28 U.S.C. § 1738. And
the Supreme Court has made clear that federal courts
“are not free to disregard 28 U.S.C. § 1738 simply to
guarantee that all takings plaintiffs can have their day in
federal court.” San Remo Hotel, L.P. v. City & Cty. of San
Francisco, Cal., 545 U.S. 323, 338, 125 S. Ct. 2491, 162 L.
Ed. 2d 315 (2005). Consequently, an England reservation
does not grant a plaintiff a “second bite at the apple” when,

20a
Appendix B
as here, a plaintiff already sought state review of the
same substantive issue. Id. 346. As Justice Thomas later
clarified, San Remo Hotel “dooms” a plaintiff’s ability
to seek review of federal claims in federal court after
proceeding in state court. Arrigoni Enters., LLC v. Town
of Durham, Conn., 136 S. Ct. 1409, 1410, 194 L. Ed. 2d 821
(2016) (Thomas, J. dissenting from denial of certiorari).
In addition to comporting with a Congressional
mandate, the San Remo Hotel holding is consistent with
the purpose of an England reservation. In England,
the Supreme Court clarified that a plaintiff could
reserve his federal claims if he was sent to state court
under the abstention doctrine. 375 U.S. at 420-21. The
Supreme Court’s decision makes sense given the logistics
of abstention. Generally, a federal court abstains to
determine whether the resolution of a distinct state issue
obviates the need to answer a federal question. San Remo
Hotel, 545 U.S. at 339. Consequently, state litigation after
abstention is usually about a state issue distinct from
a plaintiff’s federal claims. And the federal claims are
typically not litigated because of a Court order—not a
party’s strategic decision. Under those circumstances, it
can be unfair to let the state decision bar federal litigation
of the federal claims because doing so would deprive the
plaintiff of an opportunity to advance his federal claims
through no fault of his own. That scenario is inapposite to
the one here. The federal court did not deprive Plaintiffs
of their forum of choice. Rather, Plaintiffs moved to
remand the case to state court. And once in state court,
Plaintiffs advanced claims that are nearly identical to the
ones presented here. Consequently, applying res judicata

21a
Appendix B
does not unfairly deprive Plaintiffs of the opportunity to
advance their claims—they had their day in court.
In sum, while the Court recognizes that applying
res judicata in Takings Clause cases can result in harsh
consequences, see Arrigoni Enters., 136 S. Ct. at 1410-12
(2016), that is exactly what Congress and the Supreme
Court have said the law requires. Moreover, applying res
judicata in situations like the one at bar ensures federal
courts are not arrogantly second-guessing the work
of their state court colleagues, returning inconsistent
verdicts, and ignoring the important principles of
federalism, comity, and judicial economy.
B.

Issue Preclusion

Plaintiffs’ Takings Clause claims are barred under the
issue preclusion doctrine. A state-court judgment has the
same preclusive effect in federal court as it would have in
the state where it was rendered. Migra v. Warren City
Sch. Dist. Bd. of Educ., 465 U.S. 75, 81, 104 S. Ct. 892, 79
L. Ed. 2d 56 (1984). Under Michigan law, issue preclusion
applies if Ann Arbor can prove that: (1) the subject matter
of the case here is the same as was previously litigated
in state court; (2) the parties in both suits are the same;
and (3) the judgment in state court was on the merits.
Southfield Educ. Ass’n v. Southfield Bd. of Educ., 570 F.
App’x 485, 488 (6th Cir. 2014). The Court finds that all
three prongs have been satisfied.
The subject matter of the claims are the same. In
pertinent part, Plaintiffs seek relief under the Takings

22a
Appendix B
Clause of the Fifth Amendment of the United States
Constitution. In state court, Plaintiffs sought relief
under the Takings Clause of the Michigan Constitution.
Although the clauses are from different constitutions,
that difference does not preclude finding that the subject
matter is the same. Id. (holding that the subject matter
was the same when the only difference between the first
and second actions was that the first stemmed from the
Michigan Constitution and the second stemmed from
the United States Constitution). That is particularly
true when, as here, the clauses in each constitution are
“substantially similar.” Tolksdorf v. Griffith, 464 Mich. 1,
2, 626 N.W.2d 163 (2001).
The parties in both actions are the same. Here, Lynn
Lumbard, Anita Yu, John Boyer, and Mary Raab are suing
Ann Arbor. In Yu v. City of Ann Arbor, No. 331501, 2017
Mich. App. LEXIS 739, 2017 WL 1927846, at *1 (Mich.
Ct. App. May 9, 2017), the Michigan Court of Appeals
consolidated two cases brought, collectively, by the same
Plaintiffs against Ann Arbor. The Michigan Court of
Appeals then rendered a judgment, and that judgment
bound the exact same parties present here.
The judgment in state court was on the merits. The
Michigan Court of Appeals’ decision thoroughly analyzed
the Takings Clause issue, decided Ann Arbor was entitled
to summary disposition, and affirmed the resolution of
the case with prejudice. Yu, 2017 Mich. App. LEXIS 739,
2017 WL1927846, at *1. The Takings Clause analysis was
necessary to the court’s decision, and the time has passed
for Plaintiffs to seek further review in the Michigan

23a
Appendix B
courts. See Mich. Ct. R. 7.305(C)(2). Because a resolution
with prejudice “finally disposes of a party’s claim and
bars any future action on that claim,” the Court finds that
the third prong is satisfied. With Prejudice, Black’s Law
Dictionary (10th ed. 2014).
Because all three prongs are satisfied, the state court
judgment bars Plaintiffs from relitigating the Takings
Clause issue here. Plaintiffs consequently cannot obtain
any legal relief, so a dismissal of the Takings Clause
claims is proper.
C.

Claim Preclusion

To the extent Plaintiffs are bringing an additional
claim under their “right to be free from mandatory
work,” that too is barred but under the claim preclusion
doctrine. 2 The Court again applies state law to determine
the preclusive effect of a state judgment under the
claim preclusion doctrine. Southfield Educ. Ass’n, 570
F. App’x at 489 (citing Hapgood v. City of Warren, 127
F.3d 490, 493-94 (6th Cir.1997)). Under Michigan law,
claim preclusion applies when: (1) the original decision
was on the merits; (2) an issue in the subsequent action
should have been litigated in the original action; and (3)
the parties in the subsequent action are the same as the
parties in the original action. Id. (citing Dart v. Dart,
460 Mich. 573, 586, 597 N.W.2d 82 (1999)). The first and
third prongs are duplicative of the analysis under issue
2. The Court assumes, arguendo, that Plaintiffs’ claim is
cognizable.

24a
Appendix B
preclusion, so those prongs are satisfied for the same
reasons provided in Section I.A.
As to the second prong, whether any new issues
presented here should have been litigated in the earlier
state court proceedings, Michigan courts have adopted a
“broad approach” meaning that “all claims arising from
the same transaction that could have been raised in state
court, but were not, are barred.” Id. All claims here arise
from the exact same transaction underlying the state
court proceedings. And although the claims here are
federal, nothing suggests Plaintiffs could not have raised
the federal issues in the state court proceedings. 3 See
Migra, 465 U.S. at 84 (holding that res judicata principles
apply even when plaintiffs opt not to bring related federal
claims in state court proceedings); San Remo Hotel, 545
U.S. at 342 (rejecting argument that plaintiffs “have a
right to vindicate their federal claims in a federal forum”).
Accordingly, the Court finds that the second prong is
satisfied.
Because all three prongs are satisfied, the state court
judgment bars Plaintiffs from raising the new federal
issues presented here. Plaintiffs consequently cannot
obtain any legal relief, so a dismissal of any remaining
claims is proper.
3. The one exception may be Plaintiffs’ claim for declaratory
relief because 28 U.S.C. § 2201 provides that a “court of the United
States” can provide declaratory relief. But “the availability of such
relief presupposes the existence of a judicially remediable right.”
Schilling v. Rogers, 363 U.S. 666, 677, 80 S. Ct. 1288, 4 L. Ed. 2d
1478 (1960). Because no remediable rights remain, the relief sought
is unavailable.

25a
Appendix B
II. Conclusion
Because Plaintiffs cannot obtain any legal relief based
on the claims listed in the complaint, the Court will grant
Ann Arbor’s motion and dismiss the case.
ORDER
WHEREFORE, it is hereby ORDERED that
Defendant’s Motion to Dismiss [6] is GRANTED.
This is a final order that closes the case.
SO ORDERED.
/s/ Stephen J. Murphy, III
STEPHEN J. MURPHY, III
United States District Judge
Dated: February 7, 2018

26a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE SIXTH CIRCUIT, FILED FEBRUARY 27, 2019
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
No. 18-1258
LYNN LUMBARD; ANITA YU;
JOHN BOYER; MARY RAAB,
Plaintiffs-Appellants,
v.
CITY OF ANN ARBOR,
Defendant-Appellee.
ORDER
BEFORE: BAT CH ELDER , C O OK , a nd
KETHLEDGE, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for rehearing
and concludes that the issues raised in the petition were
fully considered upon the original submission and decision
of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion
for rehearing en banc.
Therefore, the petition is denied.
		

ENTERED BY ORDER OF THE COURT

		
		

/s/
Deborah S. Hunt, Clerk

